<html>
<title> - CREATING SECURE BORDERS AND OPEN DOORS: A REVIEW OF DHS-STATE COLLABORATION ON U.S. VISA POLICY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
     CREATING SECURE BORDERS AND OPEN DOORS: A REVIEW OF DHS-STATE 
                   COLLABORATION ON U.S. VISA POLICY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2004

                               __________

                           Serial No. 108-240

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______


                      U.S. GOVERNMENT PRINTING OFFICE
97-229 PDF                 WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 9, 2004................................     1
Statement of:
    Ervin, Clark Kent, Inspector General, U.S. Department of 
      Homeland Security..........................................    38
    Jacobs, Janice, Deputy Assistant Secretary for Visa Services, 
      U.S. Department of State...................................    14
    Verdery, C. Stewart, Jr., Assistant Secretary for Border and 
      Transportation Security Policy and Planning, U.S. 
      Department of Homeland Security............................    24
    Williams-Bridgers, Jacquelyn L., Managing Director, 
      International Affairs and Trade Team, U.S. Government 
      Accountability Office, accompanied by Randolph Hite, 
      Director of Information Technology Architecture and Systems 
      Issues.....................................................    71
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    12
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     4
        Testimony of the U.S. Chamber............................    50
    Ervin, Clark Kent, Inspector General, U.S. Department of 
      Homeland Security, prepared statement of...................    40
    Jacobs, Janice, Deputy Assistant Secretary for Visa Services, 
      U.S. Department of State, prepared statement of............    17
    Verdery, C. Stewart, Jr., Assistant Secretary for Border and 
      Transportation Security Policy and Planning, U.S. 
      Department of Homeland Security, prepared statement of.....    27
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    91
    Williams-Bridgers, Jacquelyn L., Managing Director, 
      International Affairs and Trade Team, U.S. Government 
      Accountability Office, prepared statement of...............    74


     CREATING SECURE BORDERS AND OPEN DOORS: A REVIEW OF DHS-STATE 
                   COLLABORATION ON U.S. VISA POLICY

                              ----------                              


                      THURSDAY, SEPTEMBER 9, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Souder, Ose, 
Maloney, Cummings, Kucinich, Tierney, Van Hollen, Ruppers-
berger, Norton, and McCollum.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Keith 
Ausbrook, chief counsel; Ellen Brown, legislative director and 
senior policy counsel; Jennifer Safavian, chief counsel for 
oversight and investigations; David Young and Jim Moore, 
counsels; Robert White, press secretary; Drew Crockett, deputy 
director of communications; John Cuaderes, senior professional 
staff member; Teresa Austin, chief clerk; Sarah Dorsie, deputy 
clerk; Corinne Zaccagnini, chief information officer; Michael 
Yeager, minority deputy chief counsel; Earley Green, minority 
chief clerk; and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. Good morning. A quorum being present, 
the Committee on Government Reform will come to order.
    I want to welcome everybody to today's hearing, which 
continues the committee's history of oversight hearings on U.S. 
visa policy. The committee has previously reviewed visa backlog 
issues and the implementation of the US-VISIT program. This 
hearing will focus on the collaboration between the Department 
of Homeland Security and the State Department in the 
establishment and implementation of U.S. visa policy.
    We all agree that homeland security is a priority and that, 
as a result of the acts of September 11th, we need to closely 
scrutinize visitors to our country. This tighter scrutiny has 
undoubtedly been a major contributing factor to the increase in 
visa application and processing delays around the world.
    Lest we think this is a trivial matter, next to issues 
concerning Social Security, visa delays tend to be the most 
requested issue when it comes to casework within our districts. 
We have heard in prior hearings about the serious impact visa 
delays have on U.S. businesses, on tourism, institutions of 
higher learning, the science community, and many others.
    Today, however, the committee will examine the 
collaboration between the Department of Homeland Security and 
the State Department in the establishment and implementation of 
U.S. visa policy, and how this collaboration is mitigating the 
delays to facilitate business and tourism while at the same 
time ensuring security.
    Section 428 of the Homeland Security Act of 2002 grants DHS 
the authority to set policy regarding the granting and issuing 
of visa. Nearly a year ago, DHS and State announced the 
completion of a Memorandum of Understanding that clarifies the 
roles of both agencies and established mechanisms through which 
interagency concerns could be addressed.
    In addition to the requirements set out under Section 428, 
a number of policy changes directed by both agency decisions 
and statutory requirements have changed the way individuals 
seek visas to travel to the United States. These changes are 
primarily in the information that is collected in the visa 
applications and the procedures by which visa applications are 
adjudicated. Despite the fact that DHS is still in its infancy 
and State has had over two centuries to practice its mission, 
it is essential that the two departments bring together their 
personnel, their information and expertise to secure the 
borders while facilitating the travel of legitimate visitors.
    The hearing will examine the collaboration between DHS and 
State, and the challenges facing the two departments in a 
number of areas, including the requirements for DHS to deploy 
visa security officers as an added security component to the 
visa adjudication process. Although these officers were 
statutorily required to be installed in Saudi Arabia to review 
all visa applications, this specific role has been under 
consideration by both State and DHS.
    The committee is also interested in the progress in 
determining which countries may receive visa security officers 
in the future and what value they will add to the visa 
adjudication process. The DHS Office of Inspector General 
recently released a report that identified several challenges 
facing the Department of Homeland Security in the 
implementation of the Visa Security Officer program.
    Particularly, the IG found that DHS faces challenges in 
recruiting, training, and maintaining permanent security 
officers in overseas posts. It is our understanding that State 
and DHS have established internal working groups to manage the 
implementation of requirements under Section 428, and will 
discuss the implementation of these requirements.
    In a previous hearing, the committee reviewed the visa 
backlog problems resulting from the lengthy Security Advisory 
Opinion process required for students, scientists, and other 
applicants who travel to the United States to work or study 
particularly on sensitive technologies. As a result of an 
interagency review of the entire process, DHS and State have 
recently modified the process to reduce the time required for 
applicants to obtain clearance from the applicable agencies 
without sacrificing security.
    DHS and State have collaborated in the implementation of 
the US-VISIT program. State has nearly completed its 
installation of equipment and software at the over 200 visa 
issuing posts around the world as part of the Visa Biometric 
Program. Biometric data collected at embassies and consulates 
are being entered into a DHS data base that is then used to 
check applicants against watch lists and to confirm the 
identity of a visa holder when a visitor attempts entry at a 
port of entry.
    Today, the Government Accountability Office released its 
report on the challenges facing the two departments in the 
strategic use of the data being collected, the embassy and the 
consulate workflow designs that need to be changed to optimize 
biometric checks, and the ensuing facility and personnel needs 
that may result from the workflow design changes.
    DHS and State access to lost and stolen passport 
information is an important tool in preventing visa application 
fraud. The information is especially important in preventing 
imposters from entering the country via the Visa Waiver Program 
by assuming the citizenship of a country participating in the 
program.
    In a previous report, the DHS Inspector General identified 
several challenges in collecting the data from foreign 
countries and making the data accessible to the officers at the 
ports of entry. The committee looks forward to hearing from 
State and DHS on the improvements made in this area.
    Through this hearing, the committee hopes to learn about 
the effectiveness of the collaboration between State and DHS in 
developing and implementing an effective visa policy. 
Information sharing is at the core of this effort. The 
committee also hopes to look beyond statutory requirements and 
deadlines to have a productive discussion on long-term issues.
    In many ways this hearing today goes to the heart of 
information sharing. Information--who has it, who gets it, and 
who acts on it--is paramount in protecting the homeland and 
facilitating travel for legitimate purposes. Information 
gathered by State or DHS is only useful as long as the other 
agencies are able to access and query that information. 
Information stovepipes are not only inefficient, they threaten 
collective security.
    As we have experienced in the past, agencies not only 
experience technological and resource limitations to 
information sharing, but also have cultural and sometimes 
statutory barriers in place that prevent useful information 
sharing. But we hope that is becoming a thing of the past. I am 
confident that after today's hearing we will have a better 
understanding of how agencies that work together can overcome 
challenges, what challenges still exist, and how information 
sharing is the key to successful visa policy.
    I want to thank all of our witnesses for appearing before 
this committee today, and I look forward to their testimony.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.001
    
    [GRAPHIC] [TIFF OMITTED] T7229.002
    
    [GRAPHIC] [TIFF OMITTED] T7229.003
    
    Chairman Tom Davis. I now yield to any other Members who 
wish to make opening statements. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. I would like to 
thank you for holding this important hearing on U.S. visa 
policy.
    Since the September 11th attacks on the United States, the 
security of our Nation is the most important issue facing us. 
Unfortunately, new visa policies and procedures have been a 
hardship for foreign students, academics, scholars, and 
scientists who come to the United States to teach, study, or to 
conduct research.
    We also have foreign nations who are invited to participate 
in scholarly conferences who have been affected by these 
policies. It is critical that we not only closely examine the 
security of our country, but that we work to make changes to 
create a system that works for our colleges, universities, and 
businesses to allow those who have been invited to attend 
conferences and have been accepted to be educated in this 
country be able to do so.
    I have spoken with college and university presidents, 
including my own president, Robert Bruininks, from the 
University of Minnesota, President Stephen Trachtenberg from 
George Washington University, and many others. These leaders in 
education are becoming more and more concerned that the world's 
brightest and most talented individuals are increasingly 
avoiding the United States to pursue educational opportunities 
and professional conferences in other countries.
    I want to bring to the committee's attention a recent 
survey of the council of 113 graduate schools that indicated 
over 90 percent of the schools responding show that they had 
major decreases in international graduate student applications 
for 2004. The 600,000 international students studying in the 
United States each year contribute more than $12 billion to the 
U.S. economy. Not only from a scholarly, but from an economic 
perspective, our colleges and universities are concerned about 
the declining international student applications.
    The major factor in this disturbing trend is post-September 
11th visa application and approval process. This process does 
not allow for the screening of students, scholars, and 
scientists in an effective, efficient and timely manner. I have 
spoken with many of our Ambassadors in foreign countries. They 
are concerned about the process, as well as Secretary of State 
Colin Powell. We need a visa process that protects Americans, 
but we also need a process that does not disadvantage U.S. 
interests in this highly competitive global marketplace for 
intellectual capacity.
    The former director of the CIA and current president of 
Texas A&M University, Robert M. Gates, articulates this well in 
a New York Times editorial dated March 31, 2004: ``We simply 
cannot tolerate a visa process that fails to differentiate 
quickly and accurately between legitimate scholars and students 
and those individuals who may pose a genuine risk to our 
security.''
    This country's global leadership is at risk. For 
generations future leaders in government, industry, and 
scientists have been educated and trained at U.S. colleges and 
universities. These students, scholars, and scientists not only 
return home with a degree, technical training or professional 
experience, but they also return home a strong friend of the 
United States and the people of the United States.
    Over the years, millions of these special relationships 
have yielded profound diplomatic, economic and cultural benefit 
to the United States and the world. For example, the Secretary 
General of the United Nations, Kofi Annan, completed his 
undergraduate work at McAllister College in St. Paul, MN, and 
we are well aware of his relationship that was started at a 
U.S. higher education institution over 40 years ago.
    At this moment in our Nation's history, cross-cultural 
understanding and global relations are critical to the world 
and critical to our safety. Now is not the time to discourage 
or dissuade the world's future decisionmakers from studying, 
teaching, or conducting research in the United States.
    In response to a question I asked the 9/11 Commission 
during an international relations hearing on August 19th, Susan 
Ginsburg, the senior counsel to 9/11 Commission, stated: ``We 
didn't see a lot of results, security benefits, from some of 
the measures put in place immediately after 9/11.''
    Mr. Chair, I look forward to today's testimony. I had 
proposed a joint hearing between the House Education and 
Workforce, and the International Relations Committee addressing 
the problems facing international students. Unfortunately, the 
chairman of the House Education and Workforce Committee did not 
see this as an important enough issue to examine. So I am 
pleased that this committee is looking at all visa processes.
    Thank you again very much for this hearing, Mr. Chair.
    Chairman Tom Davis. Thank you, Ms. McCollum.
    Mr. Souder, any opening comments?
    Mr. Souder. Yes, I would like to make a few comments.
    One, some of the history of the problem that you are 
highlighting in your testimony today originally started in this 
committee as a reaction to the failures of the visa program in 
the State Department, and when we reorganized there was a very 
hot debate over whether this should be left in the State 
Department at all.
    The State Department, I believe, and those of us who sought 
a compromise, made a compelling case that this was an entry 
level position for the State Department, and without that 
position it would be very difficult to recruit overseas and 
staff the State Department effectively; that sometimes State 
objections to individuals were not on security reasons, and so 
they had a compelling interest to stay involved.
    But what that meant is we laid over the top of that a DHS 
person there too, so that either agency in effect could flag 
and stop a person. If there were State Department interests, if 
there were a national security interest, they could overlap.
    Now, I think some of what I was just briefly reading 
suggests that clearly DHS is behind; they don't have language 
people that were trained in languages when we entered into 
this. Now, presumably their data base is better than what we 
had in the State Department. The plain fact is what we were 
faced with, the U.S. Congress, was a US-VISIT program that was 
fatally flawed and not working to protect the interest of the 
United States.
    So now we need to look--and this is what this hearing 
process is--to figure out a way to integrate two departments 
and to do this in a long-term beneficial way to the United 
States that protects both State Department interests as far as 
other types of foreign policies and other types of clearance 
types of things, as well as national security interests. And 
maybe they can blend over time and maybe they can't be blended; 
that is what this committee came to a conclusion before. 
Otherwise, it would have merely been taken from the Department 
of State and put in Homeland Security.
    But I understand the difficulty that this has been putting, 
particularly in certain areas of the world. The University of 
Notre Dame in Indiana has a very high profile case right now of 
a visiting professor, and it presents all kinds of problems 
when the information that has been gleaned may or may not want 
to be released for multiple purposes, and I don't know an easy 
way to work through this, and I am interested in the comments.
    And if I could make a side comment that doesn't directly 
relate to this regarding one problem on entry-exit visits for 
U.S. citizens that I would like DHS to look at. Congressman Joe 
Pitts and I, as well as a number of Congressmen in Ohio, 
represent the largest Amish populations in the United States. 
It is becoming an increasing problem at Windsor and Niagara 
Falls because in their religion they believe a photo is a 
graven image, and it is potentially, so far it is up almost to 
the individual agent, whether he waives that if he shows other 
types of ID.
    But in talking to a number of Amish, we may be able to work 
out something with a fingerprint. But clearly this is going to 
be, as we get better exit systems for the U.S. citizens, we are 
going to have to address that one subgroup that often goes into 
Southern Canada across that border who don't believe in photos, 
which leaves our system vulnerable to penetration if somebody 
disguises themselves if we don't address it.
    And I think that community is willing to look at that, but 
it is one that is in two of the biggest border crossings where 
we have risk zones, at Buffalo, Niagara Falls and at Detroit, a 
question we have to work through.
    I thank the chairman.
    Chairman Tom Davis. Thank you very much.
    Do any other Members wish to make opening statements?
    Yes, sir, Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you, Mr. Davis, for holding this 
hearing.
    It is our fundamental duty to preserve the openness that so 
many have sought upon our shores without providing a logistical 
loophole for those with negative intentions to take advantage. 
Only with the truest of cooperation between the two departments 
can this process create an efficient and secure visa system.
    One key component of this new system is the expansion of 
the DHS security reach. They augment the international 
experience of the State Department with the security expertise 
of the Department of Homeland Security. Recruiting, training, 
and maintaining such posts and positions must be held at a very 
high priority, as they are front lines in the war against lax 
security focus.
    Not only must we learn from the past and implement for the 
present, but we must also expand our vision toward the future. 
An integrated personnel data collection system such as the Visa 
Biometric Program will facilitate the flow of information to 
and from officers at both visa offices and port of entry 
points. This real time information will be invaluable to the 
prevention of both visa and identification fraud.
    Biometric data will allow for more accurate 
identifications, and we must work to optimize the system needed 
to ensure that this data reaches those who need it most in the 
most quick and efficient manner. Therefore, I welcome a more 
in-depth look at what programs have been implemented and how 
both departments are handling the new visa protocols.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    We now come to our first panel.
    Mr. Cummings, any opening statements?
    Mr. Cummings. Mr. Chairman, I have a brief statement.
    Chairman Tom Davis. Sure.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding this hearing today, which will allow us to look at the 
processes in place to expedite the issuing of non-immigrant 
visas at U.S. consulates abroad.
    It is important, Mr. Chairman, that the existing 
collaboration between the Department of Homeland Security and 
the State Department regarding visas is functional, because the 
threat of terrorism is at an all-time high. It is important 
that we are able to readily distinguish between ally and foe.
    By the same token, our economy is affected greatly by the 
ability to admit foreign visitors who come to this country for 
business, pleasure, students or scholars. America has always 
been, and must remain, a country that is welcoming to visitors 
and immigrants who can enrich the diverse culture of the United 
States.
    In a previous hearing, ``America's New Welcome Mat: A Look 
at the Goals and Challenges of the US-VISIT Program,'' our 
committee learned about the plans for the newly implemented 
entry-exit tracking program, US-VISIT. At that time we 
discussed several challenges of the program, such as the visa 
backlog, which had been attributed to the lengthy security 
process, as well as the possibility that innocent visitors 
might be detained at immigration ports of entry because of 
inaccurate and outdated information.
    I understand that a DHS and State Department collaboration 
has resulted in a modification of the visa application 
procedure for security clearance that will reduce the amount of 
time needed to process the applications. I applaud DHS and the 
State Department for your efforts, and look forward to hearing 
about the processes both agencies took in order to make this 
improvement possible. I also hope that similar processes are 
being put into place to minimize the delays foreign business 
travelers, students and scholars are experiencing as well.
    At today's hearing I anticipate that the DHS will update 
the committee on its overall progress in visa policy and 
oversight, and that the State Department will give an update on 
its implementation on fingerprinting, interviewing, and 
screening requirements for visa applications. I look forward to 
the hearing and the testimony.
    Mr. Chairman, again, I thank you for holding this hearing, 
and with that I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T7229.004

[GRAPHIC] [TIFF OMITTED] T7229.005

    Chairman Tom Davis. Thank you very much.
    We will now move to our first panel of witnesses. Thanks 
for bearing with us.
    I want to welcome the Honorable Janice Jacobs, the Deputy 
Assistant Secretary for Visa Services for the Department of 
State; the Honorable C. Stewart Verdery, Jr., the Assistant 
Secretary for Border and Transportation Security Policy and 
Planning for the Department of Homeland Security; and the 
Honorable Clark Kent Ervin, the Inspector General for the 
Department of Homeland Security.
    It is our policy that we swear everybody in before you 
testify. If you would rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    In order to allow time for questions, your entire statement 
is in the record, and the staff and members have reviewed that 
for our questions, but we would like to try to keep the 
testimony as close to 5 minutes as we can.
    We have a light in front of you. It will be green for the 
first 4 minutes, yellow for the 5th minute, and then it turns 
red. When you see it turn red, if you can just start to 
summarize at that point, it will be helpful. We won't hold you 
strictly to it because we want to make sure you have an 
opportunity to make your case. We are just delighted to have 
you here today.
    Ms. Jacobs, we will start with you. And thanks for bearing 
with us and being here today.

STATEMENT OF JANICE JACOBS, DEPUTY ASSISTANT SECRETARY FOR VISA 
               SERVICES, U.S. DEPARTMENT OF STATE

    Ms. Jacobs. Mr. Chairman, members of the committee, thank 
you for inviting me to testify on the cooperation between the 
State Department and the Department of Homeland Security on the 
implementation of U.S. visa policy. We are very pleased to 
review the tremendous progress we have made in the past year. 
Working together with the Department of Homeland Security and 
other agencies, we have improved the visa process and our 
ability to combat terrorism through enhanced information and 
data sharing, the use of biometric in travel documents, and an 
improved security clearance process.
    Since September 11, the Department, working with other 
agencies, has made significant improvements to our ability to 
share information. We now have 19.6 million records in our 
consular lookout system on people potentially ineligible to 
receive visas, nearly triple what we had prior to September 11.
    We are providing Customs and Border Protection [CBP], 
inspectors at ports of entry with electronic non-immigrant and 
immigrant visa data so that they can view the electronic files 
we have of every visa passenger entering the United States. We 
are also sharing our consular data base with the National 
Targeting Center [NTC], a 24/7 operation of Customs and Border 
Protection within DHS. We have also offered to provide CBP 
secondary inspectors with direct access to our Consular 
Consolidated Data base, as we have already done at both the NTC 
and the Forensic Documents Laboratory.
    The Department of State also joined in the establishment of 
the Terrorist Screening Center that integrates terrorist watch 
lists and serves as the centralized point of contact for 
everyone from the U.S. police officer on the beat here in the 
United States to the consular officer in the farthest reaches 
of the globe.
    Together with DHS, we are creating a biometric system to 
track the entry and exit of foreign visitors by using 
electronically scanned fingerprints and photographs. I am 
pleased to report that the program is now operational at more 
than 201 posts. The program will be in effect at all 211 visa 
adjudicating posts by October 26th of this year.
    We have made great progress in improving the interagency 
security clearance process in recent months by moving from a 
paper-based system to electronic transmission. As security 
advisory opinion requests and responses now flow 
electronically, there is no longer any possibility that a case 
may get lost.
    Visa's Mantis procedures have also been greatly 
streamlined. The effect has been to clear up many longstanding 
cases. The vast majority of Mantis cases are now being turned 
around within 30 days.
    The State Department is also working closely with DHS and 
other agencies as part of an Interagency Working Group to 
review information on Visa Waiver Program countries. As part of 
that process, we are working together with DHS in the 
development and implementation of the U.S. Biometric Passport 
Program in conjunction with the U.S. biometric passport 
requirements of VWP countries.
    Almost 1 year ago, the Departments of State and Homeland 
Security signed a Memorandum of Understanding based on Section 
428 of the Homeland Security Act. The MOU is our road map for 
implementing Section 428, which includes the placement of Visa 
Security Officers in selected posts.
    Currently, the consular sections in Riyadh and Jeddah are 
the only ones with Visa Security Officers, but we expect future 
deployments in the near future to additional countries. In 
Riyadh and Jeddah we have worked closely with DHS to ensure 
that the officers posted there were welcomed into the embassy 
family. We expect this level of cooperation to exist when DHS 
officers take up their duties at other embassies.
    We are working closely with DHS to establish 
responsibilities for Visa Security Officers and ensuring that 
Chiefs of Mission have the information they need to make an 
appropriate decision on officer staffing at their missions in 
accordance with NSDD-38.
    We are also working to implement other parts of the MOU. 
For example, the MOU calls for DHS officers to provide training 
to consular officers in certain areas such as counter-
terrorism, anti-fraud techniques, etc. To this end, at least 
two DHS officers will soon attend the visa portions of the 
consular training curriculum at the Foreign Service Institute. 
They will then be able to develop training materials to meet 
any needs they determine are not being met now.
    With our partner agencies in the U.S. Government, we 
continue to seek better ways to make our Nation's borders more 
secure. Working together, our goal is to establish procedures 
that will provide a sound basis for maintaining an effective, 
efficient visa process that secures America's borders from 
external threats while continuing to promote legitimate travel 
to the United States.
    Thank you.
    [The prepared statement of Ms. Jacobs follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.007
    
    [GRAPHIC] [TIFF OMITTED] T7229.008
    
    [GRAPHIC] [TIFF OMITTED] T7229.009
    
    [GRAPHIC] [TIFF OMITTED] T7229.010
    
    [GRAPHIC] [TIFF OMITTED] T7229.011
    
    [GRAPHIC] [TIFF OMITTED] T7229.012
    
    [GRAPHIC] [TIFF OMITTED] T7229.013
    
    Chairman Tom Davis. Thank you very much.
    Mr. Verdery.

 STATEMENT OF C. STEWART VERDERY, JR., ASSISTANT SECRETARY FOR 
 BORDER AND TRANSPORTATION SECURITY POLICY AND PLANNING, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Verdery. Good morning, Chairman Davis and members of 
the committee. Thank you for the opportunity to present the 
progress that the Border and Transportation Security 
Directorate has made in fulfilling the visa responsibilities 
assigned to us in the Homeland Security Act.
    Befiting of the excellent partnership that we have 
developed with the Department of State, I would like to 
associate myself with the remarks just made by Ms. Jacobs. In 
addition, my written testimony goes into great deal into many 
of the important issues raised in your opening statement.
    Chairman Tom Davis. I have just been corrected. It is 
Verdery. I know that. That was the Amherst pronunciation I was 
giving, just to let you know that.
    Mr. Verdery. You know I am a Williams grad.
    Chairman Tom Davis. I knew that. But I have an Amherst grad 
next to me, too, so it is two against one today. And I hope you 
are prepared for the questions.
    Mr. Verdery. Well, you are on the dais.
    Chairman Tom Davis. OK.
    Mr. Verdery. As I was saying, Mr. Chairman, my written 
testimony speaks in great detail to many of the important 
issues raised in your opening statement, including how we have 
stationed Visa Security Officers overseas, how we are engaging 
in a security advisory opinion process in Washington, our 
assumption of lead responsibility for broad visa policy 
determinations, and how we are managing the Visa Waiver 
Program.
    I would like to use my brief time here, the 5-minutes or 
so, to talk about how we are meshing these visa-related 
responsibilities with our broader efforts to secure 
international travel and to deploy an effective entry-exit 
system at our ports of entry.
    The 9/11 Commission has reported in painstaking detail how 
the visa issuance process was exploited to facilitate the 
September 11th attacks on the United States. As Ms. Jacobs has 
described, BTS has been working with the Department of State 
and other departments to ensure that visas are only issued to 
those eligible consistent with applicable law and following an 
appropriate security check.
    At the same time we recognize that the ability of 
legitimate students, scientists, tourists, or business partners 
to visit the United States is crucial to our society. If that 
travel is disrupted, either because people are unfairly 
rejected for a visa or because they believe travel to the 
United States is too inconvenient, we will experience 
devastating effects on our economy in the short run.
    And perhaps equally as important, in the long run the 
ability of foreign visitors to come to this country is crucial 
to spreading our democratic ideals, furthering scientific 
development, and promoting the image of America overseas.
    BTS is responsible for overall policy oversight in DHS's 
implementation of Section 428 following the Memorandum of 
Understanding between DHS and the Department of State. 
Secretary Ridge has assigned operational responsibility to the 
Visa Security Unit within U.S. Immigration and Customs 
Enforcement [ICE]. Policy development for visa security matters 
has largely been assigned to my office, the BTS Office of 
Policy and Planning, working where appropriate with U.S. 
Citizenship and Immigration Services and reporting to your 
former colleague, Under Secretary Hutchinson.
    Despite difficult budgetary challenges, BTS has made 
substantial progress in implementing Section 428 of the 
Homeland Security Act. As was mentioned, we have established 
and maintained visa security operations at two posts in Saudi 
Arabia, which now review 100 percent of applications in that 
country. We have also evaluated and selected five overseas 
posts for the next expansion of the VSU.
    BTS respects the report prepared by Mr. Ervin's Office of 
the Inspector General. We essentially agree with the 12 
recommendations to enhance implementation of our Section 428 
responsibilities, including those related to personnel 
selection and training, and selection to posts overseas. We are 
pleased that the OIG has designated all of its recommendations 
either closed or resolved.
    In sum, the deployment of Visa Security Officers to Saudi 
Arabia has yielded the security benefits that Congress 
envisioned when it crafted the Homeland Security Act. With the 
enactment of the fiscal year 2005 budget in the coming weeks, 
hopefully, the program will receive much-needed financial 
stability and certainty as we expand our deployments and 
transition to full-time employees.
    The VSU also has been tasked to participate in DOS's SAO 
process, providing the interagency review of visa applications 
selected because of risk assessments or because of scrutiny 
from the consular official. In coming weeks, BTS plans to 
deploy officers to the SAO process to resolve difficult or 
disputed cases.
    But even as we engage in handling particular SAO cases, we 
have been extremely active in the broader field of visa policy 
and, of course, under the MOU, we can establish visa policy and 
have final authority over DOS-initiated visa guidance. We have 
gone through a comprehensive review of these programs, meeting 
with the scientific community, business operations, others, and 
we have heard their message loud and clear that improvements 
need to be made, and you are seeing those improvements, wait 
times are dropping.
    The times of the applications falling into no man's land 
are quickly coming to a close. And I will just quote the 
director of Yale's Office of International Students who was 
quoted recently as saying that the administration, State 
Department, and DHS are listening very carefully to their 
concerns.
    Ms. Jacobs talked about the Visa Waiver Program reviews. I 
won't take time here to do that. I can tell you, though, that 
these reviews that are ongoing in 25 countries are not a 
cursory process, these are active law enforcement-based 
investigations of the meeting of the statutory criteria that 
Congress has enacted, and those reviews will be completed by 
October.
    As important as the visa process is, however, it is not the 
only mechanism that we use for screening for potential 
terrorists or criminals who might attempt travel to the United 
States. One of the keys for security and travel facilitation is 
knowing who is getting on the plane, especially for visa waiver 
travelers, so that the first line of defense is not when the 
passenger arrives at a U.S. airport. As you know, in May we 
finalized an important agreement with the European Union 
allowing for transfer of so-called passenger name record 
information to us for vetting purposes for international 
flights, and this PNR information is melded with the APIS 
information we have received from passports as planes are 
coming in air to the United States, vetting at the National 
Targeting Center run by Customs and Border Protection. We can 
go into this in more detail. We will be coming out with further 
guidance on APIS regulations in the near future, and we have 
promised, as part of the secure flight announcement last month, 
that we will be promulgating a rule later this fall requiring 
the APIS information before wheels up so that we can do better 
vetting of flights before they take off from foreign airports 
bound for the United States. We are also piloting the 
Immigration Security Initiative by placing inspectors overseas 
in key hub airports to assist airlines in reviewing passengers 
with potential terrorist ties or with fraudulent travel 
documents.
    If I could just close, the US-VISIT program, the SEVIS 
student program, these are obviously signature achievements of 
DHS. They have been developed in very close partnership with 
the Department of State. In fact, the US-VISIT program and the 
Bio Visa Program are essentially one and the same in terms of 
the information collected and the linkages back and forth to 
make sure that information is being shared appropriately. I 
think the current statistics, we processed about 8 million 
foreign visitors through US-VISIT without impacting wait times; 
we have matched about 790 persons against criminal data, 
prevented 264 known or suspected criminals from entering the 
country, another about 906 people have been matched while 
applying for a visa overseas based on the biometric parts of 
the Bio Visa and US-VISIT system.
    To close, the President's recent issuance of Homeland 
Security Presidential Directive 11 related to screening 
provides a formal structure to further coordinate and harmonize 
these screening programs. We recognize that much work remains 
to be done to create the 21st century borders that our citizens 
deserve to protect the homeland and to facilitate legitimate 
trade and travel.
    I want to thank this committee for its support in this most 
important endeavor. Thank you.
    [The prepared statement of Mr. Verdery follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.014
    
    [GRAPHIC] [TIFF OMITTED] T7229.015
    
    [GRAPHIC] [TIFF OMITTED] T7229.016
    
    [GRAPHIC] [TIFF OMITTED] T7229.017
    
    [GRAPHIC] [TIFF OMITTED] T7229.018
    
    [GRAPHIC] [TIFF OMITTED] T7229.019
    
    [GRAPHIC] [TIFF OMITTED] T7229.020
    
    [GRAPHIC] [TIFF OMITTED] T7229.021
    
    [GRAPHIC] [TIFF OMITTED] T7229.022
    
    [GRAPHIC] [TIFF OMITTED] T7229.023
    
    [GRAPHIC] [TIFF OMITTED] T7229.024
    
    Chairman Tom Davis. Thank you very much.
    Mr. Ervin, thanks for being with us.

    STATEMENT OF CLARK KENT ERVIN, INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Ervin. Thank you, Mr. Chairman and members of the 
committee, for this opportunity to appear today to discuss the 
findings of two of our recent reviews. The first concerns the 
assignment pursuant to Section 428 of the Homeland Security Act 
of Department of Homeland Security personnel called Visa 
Security Officers [VSOs], to Saudi Arabia initially, and 
eventually to other countries around the world, and the second 
concerns the security implications of the Visa Waiver Program. 
I will confine my oral remarks just to what we consider to be 
the most significant features of both reports, since we have 
submitted a longer statement for the record, as you noted.
    With regard to the Section 428 report, we found that the 
VSO program can enhance the security of the visa issuance 
process, but that the program as presently constituted is not 
living up to its potential. The aim of the program is to 
provide a cadre of full-time Department of Homeland Security 
personnel with general expertise in law enforcement and/or 
intelligence and specific expertise in document fraud, 
interview techniques, and the language and customs of the 
applicable country. These officers are to work with Department 
of State consular officers to ensure that visas are not issued 
to known or suspected terrorists. They are also to work with 
host country counterparts to develop more information that can 
then be used by the embassy in the visa security process.
    Unfortunately, due to funding, organizational and 
managerial problems, the 10 officers who are or have been 
serving in Saudi Arabia as of March 2004, when we completed our 
field work, have been serving on a temporary duty [TDY], basis. 
Only 1 of the 10 has served for longer than 90 days. The rapid 
turnover and short tenure has hampered their effectiveness. And 
though the act stipulated that the VSOs would be dispatched to 
Saudi Arabia upon ``enactment,'' the officers did not arrive in 
Saudi Arabia until August 2003, some 7 months after enactment.
    Further, DHS has not provided the VSOs with the training in 
language, fraud detection, and interview techniques required by 
statute; only 1 of the 10 officers reads and speaks Arabic. We 
saw firsthand, during our own visit to Saudi Arabia in March, 
how limited in their effectiveness the officers were who lack 
these skills, because many of the documents to be reviewed were 
in Arabic and many of the visa applicants to be interviewed and 
Saudi officials with whom they have to work speak only Arabic. 
Moreover, the VSOs lacked the budgetary, administrative, and 
logistical support they needed to be fully effective in their 
jobs.
    Additionally, we found at the time that the VSOs were 
spending too much time entering visa applicant data into DHS 
computers that embassy staff had already inputted into State 
Department computers, limiting the time that the DHS officers 
could devote to adding unique counter-terrorism value to the 
visa issuance process.
    Finally, when we visited the embassy in Riyadh in March, we 
learned that no thorough examination had yet been made of 
thousands of visa applications that were submitted and approved 
before September 11 to determine whether any of the applicants 
had ties to any of the September 11 terrorists. We recommended 
that, at a minimum, an evaluation be made by DHS, in 
consultation with the State Department and the FBI, to 
determine whether conducting such an examination would be cost-
beneficial.
    Section 428 contemplates, as you know, that VSOs will 
eventually be assigned to embassies and consulates throughout 
the world. Before the program is expanded beyond Saudi Arabia, 
we believe that the recommendations that we have made to 
improve the program and ensure that it meets the statutory 
intent should be implemented, and we commend the department for 
working toward that end.
    Turning briefly to the Visa Waiver Program, that program 
permits certain citizens from 27 countries to visit the United 
States for up to 90 days for purposes of tourism or business 
without a visa. While there are undeniable economic and 
diplomatic benefits to the program for America, there are also 
security risks. In this post-September 11 world, visa 
applicants are intensively scrutinized by consular officials. 
Most applicants nowadays are interviewed; they must submit 
extensive documentation; their finger scans and photos are 
taken, and the finger scans are run against key data bases; 
finally, all this information is instantly transmitted to DHS 
port of entry inspectors.
    By way of contrast, visa waiver travelers are interviewed 
for the first and only time at a port of entry, little 
information about the traveler is collected and maintained, and 
the POE inspector generally has much less familiarity than an 
overseas-based consular officer with the language and 
documentation of such travelers.
    One key recommendation that we made to strengthen the 
program was to apply the US-VISIT entry-exit checkout system to 
visa waiver travelers as soon as possible. DHS initially 
exempted visa waiver travelers from this system, which matches 
an entrant's name with a finger scan and photograph. By making 
this match, DHS can catch known terrorists and criminals who 
use the names of people with clear records to try to enter the 
country. Subsequent to the issuance of our draft report, the 
department announced that US-VISIT will be extended to visa 
waiver countries by the end of this month, and we were pleased 
by that announcement.
    To conclude, our report also focused heavily on the problem 
of lost and stolen passports, particularly those from visa 
waiver countries. It is imperative that our recommendations in 
this area be implemented as quickly as possible. We found that 
these passports can and are still being used to enter our 
country and evade the scrutiny of the visa process, and we will 
be producing a separate report on this fact in the very near 
future.
    With that, I conclude and I welcome your questions.
    [The prepared statement of Mr. Ervin follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.078
    
    [GRAPHIC] [TIFF OMITTED] T7229.079
    
    [GRAPHIC] [TIFF OMITTED] T7229.080
    
    [GRAPHIC] [TIFF OMITTED] T7229.081
    
    [GRAPHIC] [TIFF OMITTED] T7229.082
    
    [GRAPHIC] [TIFF OMITTED] T7229.083
    
    [GRAPHIC] [TIFF OMITTED] T7229.084
    
    [GRAPHIC] [TIFF OMITTED] T7229.085
    
    [GRAPHIC] [TIFF OMITTED] T7229.086
    
    Chairman Tom Davis. Thank you very much. I am going to 
start the questioning with Mr. Souder.
    Mr. Souder. Thank you very much.
    Chairman Tom Davis. Mr. Souder, before we start, let me 
just say we have received written testimony from the U.S. 
Chamber regarding its concerns about visa for business 
travelers. I ask unanimous consent this testimony be entered 
into the record. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.025
    
    [GRAPHIC] [TIFF OMITTED] T7229.026
    
    [GRAPHIC] [TIFF OMITTED] T7229.027
    
    [GRAPHIC] [TIFF OMITTED] T7229.028
    
    [GRAPHIC] [TIFF OMITTED] T7229.029
    
    [GRAPHIC] [TIFF OMITTED] T7229.030
    
    Chairman Tom Davis. And I also ask for unanimous consent 
for the record to remain open to receive a written statement by 
the Association of American Universities and from George 
Washington University. And without objection, so ordered.
    Ms. McCollum.
    Ms. McCollum. Mr. Chair, I also have some college and 
university presidents that are sending letters.
    Chairman Tom Davis. Give it to staff. We will keep the 
record open for that too. Thank you very much.
    Ms. McCollum. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Souder, you are recognized.
    Mr. Souder. Dr. Verdery, is that correct?
    Mr. Verdery. Mr. Verdery.
    Mr. Souder. Mr. Verdery, in the Inspector General's report, 
and it has come up in a number of other hearings over time, the 
Inspector General's report alleges that DHS doesn't have a 
language training program or a way to try to address this 
question. Have you undertaken this in general? I know a lot of 
the services, even at our borders, are contracted out when you 
need somebody to do interpretation.
    Is there any kind of bonus system for people to learn 
languages in these at-risk countries, particularly if they are 
going to serve tours of duty? What is your strategy of how to 
address the language problem? Right now, quite frankly, there 
could be packages that are labeled anthrax, and I am not sure 
anybody at our borders could read them.
    Mr. Verdery. Well, as we set about to meet the statutory 
requirement of having Visa Security Officers in Saudi Arabia on 
the day that the Memorandum of Understanding was signed between 
our Departments last September, we did not receive any funding 
for this, so we had to take it out of existing budgets, and we 
got very experienced law enforcement officers over there to 
meet that requirement; they were on the job, have been on the 
job ever since. Some of them do not speak the local language, 
as was recognized.
    We do recognize over the long haul that this is a 
preference, of course, for people to have the language in the 
host country. It is difficult in some cases to find people who 
can do that. In addition, the training for people to give them 
that language skill many times would be longer than the tour of 
duty that they would be going on until we move to the full-time 
employees, as I mentioned in my statement.
    Again, we are operating on TDY funds until the 2005 budget 
is enacted, which we again hope will be short and soon. But we 
do recognize this is a priority, it is just we have taken 
essentially the people we had available to do this 
responsibility, and we need to transition to the next phase of 
full-time employees with that capability.
    Mr. Souder. Well, my concern is that the Department of 
Homeland Security needs to not only look at this in terms of 
the Saudi embassy and other embassies if we in fact want to use 
DHS as a resource for security purposes at these different 
embassies around the world, but also at our borders.
    In other words, we have multiple language institutes that 
the State Department has, that the Department of Defense has, 
and is the Department of Homeland Security looking at 
interacting with these agencies? Because I don't see it just as 
an embassy problem and a tour of duty there, but as we know 
certain border crossings have a higher percentage of Arabic 
crossings and you need language training there.
    At the northern border crossings it is amazing, we don't 
even have people who speak French at the Quebec border 
crossing. To some degree, there needs to be more sense in the 
Department of Homeland Security, and if you need money to do 
the training or to send them to the State Department or Defense 
Department training centers, you should specifically request 
that of Congress.
    I also want to raise one additional point that I am sorry 
to have to raise at this hearing, Mr. Ervin, but I want to put 
it on the record, and that is regarding an issue that has 
nothing to do with my district and nothing to do with the 
politics with it, but it is regarding a lighthouse transfer in 
North Carolina.
    We have had correspondence for over a year, we have 
multiple meetings for over a year, and I believe that 
lighthouse funds have been hijacked by the Department of 
Homeland Security. They have had two audits. It is clear to 
anybody who visits that lighthouse that the lighthouse has 
received more dollars in repairs than were ever taken in by any 
group; that they have contracted to repair the tower, and the 
Department of Homeland Security has been holding the funds.
    The simple solution to this would have been to obligate 
those funds for the tower. Little kids, Boy Scout groups, 
visitors, all kinds of people gave the money for the 
lighthouse, not to have it absconded with by the Department of 
Homeland Security. This is transferring lighthouse transfer 
program, my legislation that passed; it is threatening 
lighthouses all over the United States.
    I don't have any lighthouses in my district. The people 
involved in this fight, predominantly on the side that I am 
representing here, are Democrats. I don't have a political 
fight in this. I believe this is one of the biggest travesties 
of justice that I have seen, and it is intimidating these 
groups that were intended. The Coast Guard has hundreds of 
these.
    The Department of Homeland Security is going to have a 
nightmare if every one of these things takes this kind of 
investigation; if you are going to try to figure out whether 
the money that they have has been used. Just obligate the 
funds; get it off your desk. You have far more important things 
to do, as this illustrates today, than worry about this 
lighthouse problem. And I understand that we are going to get 
this resolved next week.
    My opinion is that the two costs of these surveys should be 
refunded by the Federal Government. This has been a bullying 
tactic and people all across the country for years have kept 
these lighthouse towers and buildings intact because the 
Federal Government wouldn't invest the funds. And then we pass 
a bill to try to do it.
    To have it held up in this way has been a chilling effect 
across the whole country, and the whole Nation is watching to 
see how this gets resolved and whether they are going to be 
harassed in the same way. The Department of Interior had signed 
off, the Coast Guard had signed off; every agency had signed 
off, until the IG Office came trotting in.
    Now, I understand there was an investigation request out of 
the committee. It was real simple. Audit was done, agencies 
have cleared it. Get it out of your office. And I am looking 
forward to having that done.
    Mr. Ervin. Mr. Souder, I commend you for your interest in 
this issue. I want you to be assured that we share your 
interest in the issue. As you say, we have been working for 
quite some time on this issue, while at the same time working 
on counter-terrorism issues like the ones we are discussing 
here today. We have been very diligent about it.
    I want to assure you we have a team of auditors and lawyers 
looking at the issue. It took quite a bit of time for OBC to 
conduct the required accounting. It took quite a long time for 
the Coast Guard to receive that. It has taken some time for the 
Coast Guard to review it. I want to assure you that it is the 
Coast Guard ultimately that is the decisionmaker here, not the 
Office of Inspector General.
    All that having been said, the Coast Guard has now, we 
understand, reviewed the accounting, and we will be getting 
that in a very, very short period of time. We will then look at 
it and make our determination, and I expect, as we have told 
you, that we will be able to clear this up no later than 2 
weeks, and probably sooner than that.
    Mr. Souder. I want to make sure that the general public 
understands--and this is, if this continues, going to be the 
worst PR nightmare the Department of Homeland Security has ever 
faced to this point. If you miss a few terrorists, it will pale 
in comparison to that. But this is penny ante stuff. People 
drop money into jars, they send checks to these groups, they 
pay for this building to keep the towers up.
    They already had audits; there are tons of paperwork that 
existed. Then the Department of Homeland Security required an 
additional audit, which is why it took so long, which is going 
to basically turn up the same thing that the first audit 
showed. This is the most highly audited, the best organized 
group of any that are managing 200 lighthouses. If you are 
going to do this for 200 lighthouses, instead of going after 
terrorists, when there is no question that the dollars were 
intended for lighthouse use and all you had to say was use it 
to repair the tower, which, by the way, they have a contract 
on, what in the world is the problem?
    And, quite frankly, this has been an embarrassment, and I 
hope it gets resolved in a positive way, because otherwise what 
the Department of Homeland Security is going to have to do is 
manage all these hundreds of lighthouses that nobody is going 
to want to take because you are going to go back and give them 
30,000 to 40,000. Two audits now, because they already had done 
one before you got involved in it, and the second audit, it 
would bankrupt any of the other groups.
    This is the largest single lighthouse group in the country, 
and on the verge of going bankrupt because of your harassment. 
And it may be the Coast Guard, but the truth was the Coast 
Guard had already signed off on it until the Inspector 
General's Office got involved, whether it was Coast Guard 
Inspector General or the other.
    The fact is the Park Service, which manages it, and which I 
have oversight of and which I serve on Resources, and I am on 
Homeland Security, I find this an incredible embarrassment for 
the Department of Homeland Security, and to take time up at a 
hearing like this because I can't get responsible answers, and 
only under duress can we even get an answer, I just find 
appalling.
    Mr. Ervin. Well, actually, sir, not to prolong this, but we 
have been in constant contact with your staff, both in writing, 
on the telephone, and in person, so it is not as if you have 
not had an opportunity to raise this issue with us before this 
hearing. But, as I say, we will be resolving it very quickly, 
no later than 2 weeks, and a lot sooner than that, I expect.
    Chairman Tom Davis. Thank you very much.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I have two questions, 
and I think you can tell from my opening statement how strongly 
I feel about working together cooperatively to solve the 
student visa issue. So my first question is what steps have the 
Department of Homeland Security and the Department of State 
made to address the delays in student and scholar visa 
processing?
    The other question that I have I will set up some 
information before I ask it. The Department of State currently 
does not provide a new stamp for student or scholar visas. This 
possesses a problem when a student, especially, who has to go 
home for a temporary visit: wedding, funeral, family emergency. 
Such a trip home can cause the individual to be reevaluated 
with new background tracks having to be completed, and one 
student who was in his last year of medical school found 
himself trapped back home after going back home for a medical 
emergency for 4 months, disrupting his entire medical 
schooling.
    So we know that this is a problem and I know you are aware 
of it, so I want to know what the Department of State is 
considering in a process which would allow students and 
scholars who have already gone through a very intensive 
background check, that have been granted these visas, is there 
a process in which they can have their visa revalidated in the 
United States before traveling abroad for personal business or 
to attend an international conference that would allow them 
less confusion in returning back to the United States to 
complete their business?
    So those are my two questions, Mr. Chair.
    Ms. Jacobs. Thank you very much for the question. I think 
that we always enjoy an opportunity to talk about the 
processing of students, exchange visitors, scientists, business 
travelers, others whose travel is very, very important to us. I 
want to say that the State Department certainly endorses 
everything that has been said here today about the importance 
of continuing to attract legitimate travelers to the United 
States.
    Secretary Powell often describes the task at hand as being 
an effort to maintain secure borders, open doors. And while 
security is our first priority, we are working very, very hard 
at State and also with the Department of Homeland Security on 
trying to look at the measures that have been put into place 
after September 11 to make sure that they are targeted, that 
they are efficient, and, most of all, predictable.
    I think that is something that if people know what is going 
to happen to them when they go in to apply for a visa, even if 
it sometimes, in some cases, takes a few weeks in order to 
actually process the case to conclusion, as long as the process 
is predictable, I think people are satisfied with that. And 
that is what we are working very, very hard on.
    The State Department, as far as students go, over a year 
ago we sent out instructions to all of our visa processing 
posts, 211 posts, telling them that they had to establish 
special procedures for getting students and exchange visitors 
in to the embassy in a timely way so that they did not miss 
their programs, the beginning of studies.
    And I am happy to report that all of our posts do have in 
place, in fact, special procedures to get students, especially 
during the summer period, in in a timely way so that they don't 
miss their fall classes. We did this last year; it worked very 
well. We did it this year; it has also worked very well.
    The vast majority of students, if they are found otherwise 
qualified once they have their interview at the embassy, and 
provided they have their documents in order and they are 
otherwise eligible, get their visas very quickly. There are a 
few overall, in about the 7 million visas that we process each 
year, about 2.2 percent of that number of all categories of 
applicants to include students are subject to some type of 
Washington clearance, a vetting back here by agencies in 
Washington.
    Those, I think, are the cases that have been talked a lot 
about as far as delays and things being more difficult, 
perhaps, after September 11, and those are the very cases that 
we are working very, very hard on to reduce the delays. And I 
am happy to say that in almost all of these cases we are able 
to turn these clearances around now in 30 days or less.
    For students, research scholars, others who might be 
subject to a check to guard against the transfer of sensitive 
technology that is often referred to as the Visa's Mantis 
program, I am happy to say that because of changes that have 
been made recently, 98 percent of those cases are now being 
done within 30 days or less. That is a huge improvement over 
where we were last year, where we were even 6 months ago.
    We also have a renewed commitment from the agencies 
involved in the clearance process to turn these cases around 
quickly. We have ways now, using this new electronic system 
that we have for doing the name checks, of keeping track of the 
pending cases, and once a case reaches a certain period of time 
in its processing, we notify other agencies to tell them that 
the case is overdue. I think we are having much better results.
    Some of the stories that we hear from the schools and from 
the business community and others I think perhaps may be based 
on old cases, perhaps old information. I honestly believe that 
we have turned a corner, that we are doing better, and the 
statistics that we have on both numbers of applications and 
issuances I think verify that. Visa applications, this fiscal 
year compared to last fiscal year, are up 10.4 percent. The 
number of overall issuances, compared to last year, up 14.6 
percent. For student visas, the number of applications up 9.4 
percent, and the number of issuances to students up 11.2 
percent over last year.
    Ms. McCollum. Mr. Chair, if I could just ask a 
clarification.
    Chairman Tom Davis. You may.
    Ms. McCollum. Up from what year?
    Ms. Jacobs. From the last fiscal year.
    Ms. McCollum. Which was a negative, correct?
    Ms. Jacobs. That is right. We are certainly not up to where 
we were before September 11, but we are, I think, now for the 
first time after September 11, starting to see the numbers go 
up again, which I think is really good news.
    I think also on the student front we at State, and I know 
Department of Homeland Security as well, have met with a number 
of the academic organizations to try to explain the procedures, 
the things that we are trying to do to streamline, to make them 
better.
    I think we have had a very good and open dialog with them 
about changes. We certainly have heard their concerns and tried 
to address them. We will continue to look at all of these 
issues, though, and work with our colleagues in the other 
Federal agencies, and with the schools and other organizations, 
in trying to make further improvements.
    Chairman Tom Davis. She asked a second question. We will 
give you time to respond in writing to that.
    Ms. Jacobs. Sure. The question of people who get a 
clearance and then come here and feel that they are not able to 
return home because they may be trapped for a long period of 
time and not able to get back, a lot of this depends on the 
reciprocity schedule that we have with any given government. In 
most cases students get multiple entry visas, and what that 
means is that they don't have to go and reapply for a visa 
every time they leave the United States.
    For the ones who get limited visas, for example, a single-
entry visa, who are also subject to some type of name check, we 
have been able to reach agreement for those who are subject to 
this check, the Visa's Mantis check for tech transfer concerns, 
for those who are in a U.S. Government sponsored program who 
are going to come back to the same program and there is no 
change in their situation, the clearance itself is now good for 
a year. So those people can leave, go and apply for a visa. 
They don't have to wait for another security check; once they 
get their visa, they can come back.
    We are working on trying to extend those, make the 
clearances valid for even longer periods of time for other 
categories. And with the others who are subject to clearances, 
again, we have a commitment by all of the agencies involved in 
the process to turn these cases around quickly.
    Chairman Tom Davis. Thank you very much. Thank you.
    This is a question for all panelists. I will start with 
you, Ms. Jacobs, first. The IG has basically noted that INS has 
had difficulty getting permanent employees overseas because 
they didn't want to go there. Is there any plan to create 
something like the Foreign Commercial Service or Foreign 
Agricultural Service to provide a career track for these Visa 
Security Officers?
    Ms. Jacobs. OK, well, I think I will defer to Mr. Verdery 
to answer that completely, but I think just in general, working 
with Homeland Security, that there has been a very serious 
effort to try to get Visa Security Officers overseas. We have 
worked very, very closely with them to do that.
    Chairman Tom Davis. There has, but I am concerned about the 
lack of a career track to make it attractive to them. And I 
guess I will put it over to you, Mr. Verdery.
    Mr. Verdery. I think it is a very interesting concept. I 
think we are at a more fledgling state than that. We do not, at 
this point, have an army of people we need to worry about; it 
is a small number of individuals. We are going to be expanding 
in the coming months, once the fiscal year 2005 budget comes 
down the pike, but this is not such a large program at this 
point, where we are talking about a large number of people.
    We are really concentrating on making the Saudi operation 
work well, on getting the other hub sites up and running, on 
getting the D.C. operations in place, on converting the TDY 
individuals over to full-time. Again, I am not sure I have 
gotten the point out here, but these are very experienced law 
enforcement personnel that are going over to assist essentially 
the entry-level folks over at the Department of State who are 
working on the visas, providing great value to this process. 
But, again, that is kind of a longer----
    Chairman Tom Davis. But you are making investments in these 
people in language training and the like over the long term, 
and I am just thinking over the long term you want to make sure 
that there is an appropriate career path to attract people, go 
through the kind of training they are going to need to go 
through this. I know the program is in its infancy; I am just 
trying to look ahead a little bit.
    Mr. Verdery. And we are trying to look ahead as well. 
Again, once the funding is in place, we are actually going to 
be hiring full-time people. That is a very legitimate concern 
we need to take into account.
    Mr. Ervin. And I would just second that, Mr. Chairman. We 
recommended that, as you noted, and we think that the 
Department should definitely look at that model.
    Chairman Tom Davis. I agree.
    Also, the visa waiver review that is expected to be 
completed in October, is it going to provide a baseline 
standard? And the reason I ask that is you have some countries 
that, frankly, the people coming in here are not security 
threats. They may be threats to just disappear illegally into 
the country, but I am talking about Poland, I am talking about 
South Korea. These are countries, frankly, that aren't 
terrorist threats, as near as I can tell, and they have people 
fighting alongside us over in Iraq and the like. I think it is 
important that they get a road map for what it would take to 
gain admission to visa entry.
    I was just in Korea. One of the complaints we heard from 
businesses, from the government there, and what I hear back in 
Annandale and Fairfax and my own district is the difficulty in 
getting visas for people that are not terrorist threats. There 
are other concerns with INS, and that is the people who come 
over here and not likely to return, and we understand that.
    But if we could give these countries a road map for what it 
would take to gain admission to the visa entry program, that 
would be helpful. And I think after this report in October, 
maybe that could be a road map for it. Can you make a comment 
on that?
    Mr. Verdery. Again, I think you are right. Our priority is 
to get these country reviews done to make sure the countries 
who are already in the program are meeting their criteria, 
especially on lost and stolen passports responsibilities, 
reporting those to us so we can detect these people at ports of 
entry.
    But there are other very important statutory criteria that 
Congress has passed about refusal rates, overstay rates, 
cooperation with law enforcement and the like, all the things 
you would want from a country that is given this kind of 
privilege. And since there is a road map for countries to 
understand how they will be judged, and once we get these 
reviews done over the next few weeks, we are then going to turn 
to reviewing anybody else who would like to apply.
    Now, I can tell you that the criteria are fairly stringent, 
so I wouldn't want to give people false hope. But there is a 
process and we will take that on once we get through these 
country reviews.
    Chairman Tom Davis. My impression is that some of the 
criteria are more anecdotal than they are factually based, in 
terms of who we are letting in and not letting in, focusing in 
on younger women coming in, that somehow we think they are more 
likely to disappear into the population than others, and the 
like. Will the data collected from the US-VISIT be used in 
evaluating countries that want to join the Visa Waiver Program?
    Mr. Verdery. Yes. The VISIT program, as you know, we are 
building out the exit part of VISIT with pilot programs at 
several airports right now that will give us better departure 
data than we have currently so we will be able to understand 
overstay rates in a more comprehensive way than we have right 
now. We have many departure points to go, we have to pick a 
technology for the exit, which is extremely complicated, but 
over time we will have much better overstay information that 
would be plugged into countries who want to apply for the Visa 
Waiver Program itself.
    Chairman Tom Davis. I want to put my plug in for South 
Korea in particular because they have a current problem in my 
district with our large population coming back and forth. I 
don't think it is a major security issue that drives it. There 
are some elements of that, but getting into that peninsula is 
pretty tough.
    Mr. Verdery. There is both a security and a overstay issue 
here.
    Chairman Tom Davis. The overstay issue I think takes 
dominance. I think the other we can work through.
    Mr. Ervin, you wanted to comment?
    Mr. Ervin. Just one quick interjection, if I may, on the 
issue of countries like Poland and South Korea. I am very 
pleased that the country reviews are being done by the 
Department; I think that is very important. I agree that road 
maps should be provided for countries like Poland and South 
Korea and others that desire to become part of the program.
    But just a caution, and that is that it is not necessarily 
the case that terrorists will always come from countries in the 
Middle East or Islamic countries. Increasingly, in fact, it is 
likely that they will come from countries with which 
traditionally the United States has had very good diplomatic 
relations from which terrorists have not traditionally come. 
After all, Zacharias Moussaoui entered our country on a French 
passport, and Richard Reid, the shoe bomber, came on a British 
passport. So just a caution about that.
    Chairman Tom Davis. Yes, but the Korean peninsula is pretty 
isolated. Now, I guess in theory you could have a North Korean 
come down and sneak down over the border and steal a passport, 
but we could find a way around that. To get through that 
peninsula, it is not like it is a porous border like the French 
passports where people are coming in and out.
    I think, in fairness, they have troops fighting alongside 
us over there, and I don't want to do anything to discredit 
what that government has done and how important this could be 
with everything else going on. So that's my own view, but 
having been over there and seeing the amount of trade and 
commerce going on, the number of people going back and forth, 
this would be a primary, in my judgment, for a visa waiver, 
just make things a lot smoother.
    But if you just let them know what criteria they have to 
meet, I think they could take some internal steps to try to 
meet that and hopefully meet the concerns that you have, which 
we think are legitimate.
    Mr. Ervin. Thank you.
    Chairman Tom Davis. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you. I am always fascinated by that 
subject. Whenever you have a waiver program, you run the risk 
that somebody is going to impose upon nationals of another 
country to do their dirty work for them.
    So I think that there is always that concern, and it is 
sort of tough to reconcile a waiver program if security is your 
issue, because you are assuming that nobody is ever going to be 
imposed upon through blackmail or threats or anything like that 
to do something, and it gets difficult on that.
    Ms. Jacobs, the VISIT program, there has been criticism in 
the past of the fact that the data bases were so large and had 
gotten some inaccurate data in the past that had a lot of dated 
information, and now we have added millions to it. Can you tell 
me what the report is on false positives? Are we getting a lot 
of false positives? Has that issue been resolved favorably?
    Mr. Verdery. I think that actually probably falls more in 
my camp, Congressman. There are false positives where the 
fingerprint does bring up somebody else, but it is extremely 
low, in the one-tenth of 1 percent kind of phaseout of the 8 
million, and they are being resolved within a few minutes.
    We have a pretty robust privacy policy within US-VISIT 
which we run, and to date there have been very few complaints. 
People have actually found the finger scanning, as we like to 
call it, fairly innocuous, and we have almost no privacy 
complaints. People see it as a great security measure. It 
hasn't increased the waits at all.
    Mr. Tierney. Can either you or Ms. Jacobs tell me what was 
the delay on the Memorandum of Understanding? Why did it take 
so long to get that document done?
    Mr. Verdery. It is just extremely complicated on dividing 
up the responsibilities between the oversight mechanism that we 
play, both in Washington and overseas, and the operational 
responsibilities for Ms. Jacobs' consular officials and some of 
the touchy issues on the recognition of their diplomatic needs 
and these things. So this was taking some of our best lawyers, 
some of our best policy folks to get it done, and we think it 
has worked well.
    I wouldn't want the hearing to close without saying that 
the point here is cooperation. There are probably no two 
departments I know of that cooperate better than we do. There 
is no Federal official I talk to more than Janice, and we have 
an incredibly strong relationship on the visa program, on 
VISIT, and how they mesh together, so I think it is working 
very well.
    Mr. Tierney. Mr. Ervin's study indicates that many of the 
things that needed to be done could have been done prior to 
that Memorandum of Understanding being done. Was there a reason 
for the delay at the Department of Homeland Security in 
implementing what it could have done without the agreement?
    Mr. Verdery. I think we have a disagreement over the 
legalisms here as to when our officers were required to be 
deployed to Saudi Arabia, I think our lawyers and his lawyers 
disagree about the exact date. In our view it wouldn't have 
made a whole lot of sense to send them over there without 
having the legal framework for providing their ability to 
engage in the visa process, and they were there the day it was 
signed.
    So this is a legal issue. I think it has been a year now. 
They are providing great value over in Saudi Arabia, have been 
engaged in finding people that wouldn't have been detected 
otherwise and engaging with the consular officials, so I think 
in some ways we are passed that, but there is just a debate 
over the statutory interpretation.
    Mr. Tierney. I am a little concerned about some of the 
things I see in the report about whether or not they are being 
that effective when I see that 9 out of 10 of the officers 
served over in Saudi Arabia don't read or speak Arabic, and 
right on down the line.
    But let me, because time is limited, go to the funding 
issue. Where do we stand on the funding? Is it still inadequate 
to complete the things that need to be completed on that? Where 
is it in the process? How far apart are the present numbers 
being proposed from what the perceived needs of the Department 
are?
    Mr. Verdery. Well, as you know, we are winding up fiscal 
year 2004. There was no money in the 2004 budget because the 
agreement hadn't been signed and the office hadn't been set up; 
there was essentially nothing to fund. So we have taken money 
from ICE and other parts of the Department to build this 
fledgling program.
    There is $10 million that is in the appropriations bill 
that are pending here that will provide enough money to do the 
Washington responsibilities we talked about and turn the Saudi 
operation into full-time, permanent employees and at least one 
other hub location overseas to full-time, permanent.
    Now, we are also looking, very importantly, at having 
enough money to deploy rapid response teams. So if we see a 
country where there is a security gap or we have intelligence 
about a potential security gap, we can get a team of 
experienced law enforcement people there, maybe 30 days, 60 
days, to engage, to improve the situation, to get us through a 
risk period, and the like. It is a different model than just 
sending people everywhere, but we think it is one that should 
be explored.
    So the money is there. I would think in future years, as 
the program meets success and we have the fully engaged 
partnership developed, I would imagine they would expand beyond 
the $10 million, but that is what we need for this year.
    Mr. Tierney. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. We know what some of the issues are. We 
know you have a very difficult time. It is good to see that we 
have the Department of Homeland Security and State working 
together on this issue. We know what the problems are and we 
have attempted to set up the systems, now it is a matter of 
implementing and managing those systems.
    I would like to talk about two different areas, if I can, 
in the time allotted, to get into some more specifics, and that 
is something that has been alluded to today. The question is 
about the Visa Security Officers and, second, the Biometric 
Visa Program, and that is the program, as we know, that 
requires applicants for fingerprinting, photographs, and to 
await clearance through the IDENT system.
    Now, as it relates to the VSO or the security officers, 
first thing, why did we just pick Saudi Arabia? Is it a pilot 
program? I mean, the law basically states that we must have 
these VSO Security Officers in Saudi Arabia.
    Mr. Verdery. Part of the Homeland Security Act essentially 
said that we could not issue any visas after the date the MOU 
was signed unless we had the DHS Visa Security Officers in 
Saudi reviewing those applications.
    Mr. Ruppersberger. OK, now, I know.
    Mr. Ervin. May I just interject? Actually, the statute said 
that notwithstanding any other provision of law, that after the 
enactment of the act, which was January 2003, there had to be 
onsite DHS personnel to review visa applications in Saudi 
Arabia, and it was because 15 of the 19 September 11 terrorists 
were from Saudi Arabia.
    Mr. Ruppersberger. OK. Well, let me ask you this. Do we 
have a job description for that position, for the VSO? What is 
the job description? And what I am alluding to--let me go a 
little bit further. Do we have issues that would relate to 
language? What is the funding mechanism? What is the plan to go 
into other countries?
    I mean, what this does is give a stronger security 
component to the visa process, but it is not just having a 
couple people out there and throwing them out there without 
training and the ability to speak the language. What do we need 
to do to make this a stronger program to then take this to 
other countries where we have just as much vulnerability as 
Saudi Arabia?
    Mr. Verdery. Well, there is a plan in place on training the 
officers, on providing the job descriptions, on moving on to 
other countries, the hub countries, as I mentioned. Some of 
these we have interim training programs in place and are moving 
on to more full-time programs. For instance, we are required to 
train the VSOs. We have been doing that in-house.
    We are now going to be working with FLETC, Federal Law 
Enforcement Training Center, to provide that professional 
training to the VSOs as they are deployed overseas. So in some 
ways we have come up with interim measures that have fit the 
bill during this interim year. Now we are moving on to full-
time employees, about the language issues and the like.
    In terms of the deployment to other locations, we expect 
that to be done throughout fiscal year 2005 as the money comes 
in, to get people out to high-risk areas. We have identified 
five. We think we will probably do at least one in fiscal year 
2005, in addition to these rapid response teams I mentioned 
that we would like to be able to do.
    So there are plans in place. I would be not fully honest if 
I said this has been a difficult program to manage with no 
funds. So we have taken it out of----
    Mr. Ruppersberger. Well, my concern is this looks like a 
good program, but we are woefully inadequate as far as the 
personnel is concerned, the training is concerned. If you can't 
speak the language, I wonder if there is expertise in 
intelligence analysis, the ability to analyze what we have.
    What is the integration, if we have the technology there, 
the integration between getting information and getting into 
other arenas or finding out where to get that information? I 
think it is a program that makes a lot of sense, but I am very 
concerned about what I hear today about implementing it, the 
technology, the training, the job descriptions, all of those 
areas.
    Mr. Verdery. We obviously agree. We think this is very 
valuable. The people who have been doing this have found it 
valuable. The State Department colleagues have found it to be 
valuable. We are finding people in the application process that 
would not have been found otherwise. The law enforcement 
experience and the access that they bring to the broader range 
of DHS----
    Mr. Ruppersberger. I am going to interrupt you because I 
see my yellow light is on. I want to get to the Biometric Visa 
Program, which really I think is a great program. I know that 
the GAO is expected to issue a report that there is not enough 
uniform guidance as far, as the management of this program, for 
those individuals that are adjudicating the visa applications.
    The good news is that GAO is going to say that you are 
ahead of schedule on the implementation of the program, which 
is supposed to start, I think, in October 2004. My question 
basically is if the GAO is coming out with that recommendation, 
they are concerned about the uniform guidance, how do we expect 
to deal with that?
    Ms. Jacobs. Thank you for the question. The Bio Visa 
Program is one that the State Department is very, very proud 
of. We were able to get it out to the field very quickly. We 
started in September 2003. We will definitely meet our October 
26 deadline for having the program up and running at all of our 
211 visa processing posts.
    The study that the GAO did pointed to some recommendations 
about more policy guidance to the field, more instructions on 
implementing the program. In our response to the GAO report, we 
did point to a number of instructions, policy guidance that was 
sent out to the field beginning in September 2003, when we 
first deployed the program, and I would be happy to provide you 
with sort of a list of all of those telegrams that have gone 
out.
    Some of the issues raised in that report had to do with 
procedural questions that were still being worked out because 
it was a new program. We are really joined at the hip with DHS 
in implementing this program. I think it is one of the best 
examples of the cooperation between our two agencies.
    But there were some technical systems issues that we has to 
address along the way, and we did keep the field informed. One 
of the questions was getting the result of the name check, the 
IDENT check back before an interview seemed to be important to 
the GAO investigators, and as we explained in our response, no 
visa can be issued until the results have been looked at by the 
adjudicating officer.
    So it would be nice to have the information, but sometimes, 
given the way that the system is set up and works, that is not 
always possible. But the information is always available before 
the visa is actually adjudicated.
    Mr. Ruppersberger. Thank you. I think it is very important 
that we have a lot of oversight on the Visa Security Officers 
program. It is a good idea. Where it is now, I think it is 
really doomed for failure, and yet I think we need this type of 
program. So if you could report back, at least to me, if not 
the committee, on where we are in this program and what it 
needs to be successful; otherwise, I believe we are wasting 
money.
    Chairman Tom Davis. Thank you very much.
    Mr. Verdery. We would be happy to. And, again, we agree 
this is a very key priority of Under Secretary Hutchinson, and 
we are going to make the most of the money that is coming our 
way.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I want to thank all the witnesses for being here. I was 
also pleased to hear of the cooperation between DHS and the 
State Department on many of these issues. I would say in our 
district office the overwhelming number of constituent cases 
that we deal with, we deal with immigration issues, both on the 
permanent immigration side but very often on the non-immigrant 
visa issue. It is the No. 1 issue with respect to constituent 
concerns.
    And in that regard, as I understand it, we have really got 
a couple of processes: you can be in the Visa Waiver Program in 
1 of 27 countries where you go through no visa process or a 
couple of the other exceptions, or you can be from a country 
where we are going through a much more vigorous visa 
application process.
    And with respect to that second category of countries, my 
question deals with those individuals who apply for a visa, 
they go to the consular officer, they are determined not to be 
a security risk, they go through all the background checks and 
determine that this person has no history of any kind of 
wrongdoing or anything, but they are denied a visa because of a 
concern that they are going to overstay their visit.
    And we have so many people who are trying to come here for 
weddings, in many cases funerals, where the individual is 
denied on the basis that they claim that they are going to be 
at risk of overstaying; not a security risk, risk of 
overstaying, but really given no reason in many cases, provided 
no argument or rationale for why this person is denied and what 
that person would have to show in order to meet the tests of 
the consular officer.
    So I would appreciate it if you could address that issue, 
because it comes up constantly in our district office.
    Ms. Jacobs. OK, I would be happy to try to address that. 
The section of law that you are talking about is Section 214(b) 
of the Immigration Act, which basically presumes that all non-
immigrant applicants are intending applicants until they 
overcome that presumption. And 214(b) remains the primary 
reason that people are denied visas, more so certainly than 
people being suspected of being terrorists or security risks.
    Section 214(b) does loom large for the vast majority of 
applicants. It is something that has certainly existed before 
September 11, and it is something that all of our consular 
officers receive training before they are put in a position of 
having to adjudicate visas, training in how to identify bona 
fide applicants and those who may be coming who are in fact 
intending to remain in the United States.
    The officers who are at our embassies adjudicating visas 
have received a lot of other types of training, they are very 
familiar with the host country, the social, political, economic 
conditions in that country, and they really are able to tell, 
for the most part, applicants who really are coming for the 
intended purpose and those who have not been able to overcome 
this presumption of being an intended immigrant.
    There are certain countries where there is a lot of 
pressure to immigrate to the United States, either to find jobs 
because there are family, friends here, other reasons, and in 
those countries, again, most of the cases are denied because of 
this intending immigrant presumption.
    We do give officers training. I know that sometimes 
applicants feel that they are not given an explanation. All 
applicants are supposed to be given in writing the reason that 
the visa was denied.
    We do give all kinds of suggestions about what an applicant 
can bring in the way of documents and otherwise to show that 
they have strong ties to the home country, to give proof about 
the purpose of the visit to the United States. So the officer 
looks at every case on its individual merits, looking at the 
case as a whole, and uses the training and the knowledge about 
the host country to make the best decision possible.
    Mr. Van Hollen. OK. Well, I would appreciate the 
opportunity to work with your office on some of these cases 
because there are some that I think we would all agree, fair-
minded people would agree are cases where there was absolutely 
no risk of someone not returning to their homeland, a case 
where someone wanted to see his dying brother who had brain 
cancer, in fact, we were finally able to resolve it and the 
person went back.
    But there are cases where it seems to me understandably 
consular officers who are the front line since September 11 are 
denying people far more automatically than they were before, 
even where there is no issue of security. Obviously if there is 
any hint of a security risk, that person needs to be fully 
vetted and make sure that we don't allow that person to enter, 
but these are people who there is no finding of security risk 
and yet it seems that there has been an increase in denials 
without providing any rationale for the decision. So I hope 
that at least on certain cases we are able to work together.
    Mr. Verdery. Congressman, could I just add two points 
related to this?
    One, we have been working quite closely with the business 
community to try to figure out better mechanisms for business 
travelers to avoid getting caught up in this kind of 214(b) 
issue. We have had very productive discussions on making sure 
that they provide the best documentation available, that we can 
work with the companies to figure out, yes, these are 
legitimate company employees, that kind of thing, to try to 
help on that front.
    The second thing goes back to the point I think Congressman 
Tierney raised, the importance of the exit part of US-VISIT. 
Essentially, now, when somebody arrives, we really don't know 
when they are leaving, so having that capability over the next 
few years to be built out will really add to the value of 
understanding when you give somebody a visa, what does that 
mean; are they leaving, are they staying, what countries are 
problem areas, and the like. So getting that right is extremely 
important, but very difficult when you think of imposing that 
kind of requirement at airports or land borders.
    So look forward to working with you on both of those.
    Mr. Van Hollen. Right. No, I think that is critical, being 
able to document who is overstaying or not. My concern is that 
often we are not doing it on an individual basis, we are 
generalizing with respect to countries.
    So an individual who may have a very good individual case 
to come here is somehow tainted because others from that 
country may have overstayed. But I think you are absolutely 
right, it is important to get the data so that we can take a 
look at these things.
    Chairman Tom Davis. And also I just hope you would consider 
US-VISIT information, too, in the visa process so the barriers 
that exist now, we are going to get a lot of information out of 
that, and as we talked before, not just for the Visa Waiver 
Program, but in some of the other areas, we want to optimize 
the use of this information. We will come back and revisit this 
when we get it.
    I think that will conclude this panel. The committee will 
take about a 1-minute recess as we move our next panel.
    Oh, Mr. Souder has one last question.
    Mr. Souder. I am sorry. I wanted to ask Ms. Jacobs are all 
State Department employees required to know the language when 
they go into a country?
    Ms. Jacobs. For the most part, yes. Our positions are 
language-designated or not, but in most instances consular 
officers do speak the language of the host country.
    Mr. Souder. And do you have training programs for those 
people? Because pretty much everybody I have met has to 
understand the language when they are in that country as part 
of their training program before they go over.
    Ms. Jacobs. Yes, sir, we do, we have a very intensive 
language program provided by our Foreign Service Institute.
    Mr. Souder. What is your estimate of the cost of that 
program per person, do you have it in your budget when you 
figure you have to train somebody?
    Ms. Jacobs. I can get back to you with that number.
    Mr. Souder. OK, thank you.
    Chairman Tom Davis. Thank you again. Our thanks to this 
panel. We will take a 1-minute recess, then we will have 
Jacquelyn Williams-Bridgers, Managing Director of the 
International Affairs and Trade Team for the Government 
Accountability Office, next.
    [Recess.]
    Chairman Tom Davis. We will now move to our second panel, 
and I want to thank Jacquelyn L. Williams-Bridgers, the 
Managing Director of the International Affairs and Trade Team 
for the Government Accountability Office for being here.
    It is the policy of this committee that all witnesses be 
sworn. If you would rise with me and raise your right hands. 
Who do you have with you we need to identify?
    Ms. Williams-Bridgers. With me is Randolph Hite, who is the 
Director of International Technology Architecture and Systems 
Issues.
    Chairman Tom Davis. Mr. Hite, welcome. We will swear you in 
as well in case we have any questions.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    I know you know the rules. We are trying to beat a vote, so 
if we can get through your testimony and get through questions 
and hopefully, when they call the vote, we can go on for 10 
minutes and then dismiss you and not have to hold you until 
afterwards, and that will save you some time. Thanks for being 
with us.

    STATEMENTS OF JACQUELYN L. WILLIAMS-BRIDGERS, MANAGING 
DIRECTOR, INTERNATIONAL AFFAIRS AND TRADE TEAM, U.S. GOVERNMENT 
 ACCOUNTABILITY OFFICE, ACCOMPANIED BY RANDOLPH HITE, DIRECTOR 
   OF INFORMATION TECHNOLOGY ARCHITECTURE AND SYSTEMS ISSUES

    Ms. Williams-Bridgers. Thank you very much, Mr. Chairman 
and members of the committee, for having us here today to 
discuss the results of our report issued to you on the results 
of GAO's review of the Biometric Visa Program, as well as other 
aspects of visa and border security programs that highlight the 
need for joint, coordinated efforts by the Department of State 
and the Department of Homeland Security.
    Since September 11, the U.S. Government has made a 
concerted effort to better protect our borders by enhancing 
visa issuance policies and procedures, as well as improving the 
screening of millions of foreign visitors who enter, stay, and 
exit the United States each year. State's Biometric Visa 
Program complements the DHS-run US-VISIT program by extending 
border security improvements beyond U.S. ports of entry.
    The Biometrics Program requires pre-screening of visa 
applicants at U.S. consulates overseas to ensure that they are 
qualified to obtain visas. The US-VISIT program, among other 
things, verifies that the same person who applied for a visa is 
the one who is actually entering the United States using that 
visa.
    My statement today will focus on our observations and 
recommendations that call for joint collaboration of effort 
between State and DHS to improve border security programs 
specifically with regard to the Biometric Visa Program and the 
US-VISIT program.
    In summary, State and DHS have made many improvements to 
visa issuance policies and border security. Nevertheless, in 
our reviews we have found weaknesses that both agencies need to 
address. For example, we found that State is implementing the 
Biometric Visa Program on schedule and will likely meet the 
mandated October 2004 deadline for issuing visas with biometric 
identifiers.
    As of last week, State had installed program hardware and 
software at 201 of 207 overseas posts that issue visas, and 
State plans to complete installation at the remaining six posts 
by the end of this month. The biometric technology installation 
has progressed smoothly; however, DHS and State have not 
provided comprehensive guidance to consular posts on when and 
how the information on visa applicants obtained from IDENT 
should be considered by adjudicating officers.
    In the absence of such guidance, officers may be unclear on 
how to optimize the use of IDENT information provided under the 
Biometrics Program. Therefore, we recommend in our report that 
DHS and State develop and provide such guidance to consular 
posts on how information on visa applicants available through 
IDENT should be used to help adjudicate visa applications.
    Further, DHS has employed an initial US-VISIT operating 
capability, including the use of biometric, for entry at 115 
airports and 14 seaports. DHS plans to expand the initial 
operating capability at the fiftiest busiest land ports of 
entry by December 2004 and to all remaining land ports of entry 
by December 2005. It has deployed an exit capability on a pilot 
basis at two airports and one seaport to enable electronic 
matching of biometric data collected at entry to those 
collected at exit.
    However, earlier this year we reported that DHS's homeland 
security enterprise architecture had not yet been adequately 
defined. By this I mean DHS had not fully constructed an 
operational context or a blueprint to provide, for example, all 
US-VISIT stakeholder agencies a common frame of reference for 
how to implement US-VISIT in terms of such things as the 
desired program outcomes, the business processes, information 
flows, and areas of responsibility.
    DHS released an initial version of its enterprise 
architecture in September 2003; however, we found that this 
architecture was missing important content. This content is 
needed to help verify, clarify, and optimize the relationships 
between US-VISIT and other homeland security programs and 
operations such as State's Biometric Visa Program. DHS plans to 
release a new version of its enterprise architecture in several 
weeks.
    Also in 2003 we identified systemic weaknesses in another 
program key to homeland security: the visa revocation process. 
Many of the weaknesses we identified were the result of a 
failure of U.S. agencies to share and effectively utilize 
information that was shared. Last summer we reported that 
information on individuals with visas revoked on terrorism 
grounds was not fully shared between State and appropriate 
immigration and law enforcement agencies.
    A followup review just this summer showed that although 
State and DHS had made some improvements in the revocation 
process in response to our recommendations, some weaknesses 
remained. For example, in some cases, State took a week or 
longer to notify DHS that it had revoked visas based on 
potential terrorism concerns. As a result, we made additional 
recommendations to both agencies which they have agreed to 
implement.
    Timely information sharing among State, DHS, and other 
agencies also affects the time it takes to adjudicate a visa 
for science students and scholars, as has been discussed during 
the previous panel. In some cases consular officers determine 
that some of these applicants must undergo the Visa's Mantis 
check to protect against sensitive technology transfers.
    In February of this year we found that it was difficult to 
resolve some Visa's Mantis cases expeditiously, given the way 
that the information was disseminated among State, DHS and 
other agencies. State and DHS are currently working to 
implement recommendations that we have made.
    In conclusion, overall our work has demonstrated that 
coordinated, joint actions taken by State and DHS are critical 
to homeland and border security. State and DHS have worked 
together to roll out the biometric technology to consular posts 
worldwide and on schedule. Moreover, their cooperation on US-
VISIT has been, and will continue to be critical to ensure that 
information available to consulates is there and ready for them 
to adjudicate visa applications in a timely manner.
    We recognize that it may not be feasible for each post 
around the world to implement biometric visas in the exact same 
way, given the variances in consulates' workloads, their 
physical facilities, the level of personnel, and security of 
concerns with the applicant pool. However, guidance to posts on 
how to optimize use of biometric information would enable posts 
to develop best operating procedures to identify their resource 
gaps and to implement mitigating actions to address their 
unique circumstances.
    Therefore, we made a number of recommendations to State and 
Homeland Security to develop guidance that should address the 
planned uses of information generated by the Biometric Visa 
Program, including guidance to consular officers on when and 
how such information should be considered. Further, we 
recommend that the Secretary of State direct consular posts to 
develop implementing guidance. State has acknowledged there 
might be some lag in the guidance they have already provided by 
way of the 13 telegrams; however, we believe that additional 
action is needed.
    Mr. Chairman, this concludes my prepared statement. As I 
mentioned, I am joined by my colleague, Randolph Hite, and 
would be glad to entertain any questions that you or members 
might have.
    [The prepared statement of Ms. Williams-Bridgers follows:]
    [GRAPHIC] [TIFF OMITTED] T7229.031
    
    [GRAPHIC] [TIFF OMITTED] T7229.032
    
    [GRAPHIC] [TIFF OMITTED] T7229.033
    
    [GRAPHIC] [TIFF OMITTED] T7229.034
    
    [GRAPHIC] [TIFF OMITTED] T7229.035
    
    [GRAPHIC] [TIFF OMITTED] T7229.036
    
    [GRAPHIC] [TIFF OMITTED] T7229.037
    
    [GRAPHIC] [TIFF OMITTED] T7229.038
    
    [GRAPHIC] [TIFF OMITTED] T7229.039
    
    [GRAPHIC] [TIFF OMITTED] T7229.040
    
    [GRAPHIC] [TIFF OMITTED] T7229.041
    
    [GRAPHIC] [TIFF OMITTED] T7229.042
    
    [GRAPHIC] [TIFF OMITTED] T7229.043
    
    Chairman Tom Davis. Thank you very much. Let me start. In 
your testimony you mentioned that the DHS enterprise 
architecture is missing important content relating to US-VISIT. 
Can you elaborate on that concern?
    Mr. Hite. If I could, Mr. Chairman.
    Chairman Tom Davis. Mr. Hite.
    Mr. Hite. It is missing content with respect to US-VISIT 
and all homeland security programs, because the enterprise 
architecture is designed to define how homeland security is 
supposed to function, both in operational and technical terms, 
not just within the Department of Homeland Security, but across 
all Federal agencies that are involved in homeland security, 
and it extends to State and local governments as well.
    So what we did was use accepted criteria that are out in 
the public domain concerning what the content of an enterprise 
architecture should include. We had 34 criteria governing the 
target architecture, the target environment that you want to 
move toward, and then we also had 5 criteria governing what 
should be in the transition plan, which moves you from your 
current environment to your target.
    And basically what we found was that it partially satisfied 
about 60 percent of those criteria, those key elements, and had 
not satisfied 40 percent. So it is clearly a work in process 
that right now didn't have the level of detail and depth and 
scope of coverage that would allow programs to be implemented 
in a way so that they interoperate and optimize cross-
organizational performance.
    Chairman Tom Davis. Could you comment on the necessity for 
the State Department to identify IDENT information retrieval 
time requirements for optimal visa interviews so that DHS can 
appropriately set the systems requirements necessary for US-
VISIT?
    Ms. Williams-Bridgers. Yes. What we found was, unlike what 
was mentioned in the prior panel, adjudicating officers, those 
officers at posts who actually conducted the interviews of visa 
applicants, do not always have all of the information that is 
returned from an IDENT search.
    For example, in one of the posts that we visited, there is 
one consular officer who will review an IDENT response once 
fingerprints have been taken and another consular officer who 
conducts the interview. So, for example, information that may 
be returned in an IDENT response that is not clearly 
derogatory, meaning that it is not a hit on a watch list, but 
may be relevant or even contradictory to information obtained 
by an interviewing officer, is not always made available to 
that interviewing officer. Therefore, we believe that sometimes 
decisions can be made by an adjudicating officer without the 
benefit of all the information that may be contained in the 
IDENT response.
    Chairman Tom Davis. Also there have been some concerns 
about facility limitations, the use of Americans outside the 
hard line to collect finger scans and the use of Foreign 
Service Nationals to collect biometric data. How could these 
challenges impede on the optimal workflow for obtaining IDENT 
information prior to a visa interview?
    Ms. Williams-Bridgers. In those posts where there is enough 
physical space in the consulate to allow for the collection of 
fingerprint data, allow for the applicants to wait in an 
environment so that the IDENT information can be processed and 
then, given a 15 or 30 minute turnaround in the IDENT response, 
to be given to the adjudicating officer, it would allow the 
adjudicating officer to have all the information available to 
them.
    In those consulates where there is not the physical space 
to allow the number of applicants to wait while the IDENT 
responses are returned to the consulate, it does not allow for 
that timely and expeditious consideration of the information. 
Therefore, an interviewing officer may complete the interview 
before the IDENT response is made available to them, therefore 
prolonging the whole of the visa consideration process.
    Chairman Tom Davis. Thank you very much.
    Mr. Tierney, any questions?
    Mr. Tierney. Thank you. I read your report, and it is very 
thorough and I appreciate it. Let me ask you a general 
question. Do you find that the Department of Homeland Security 
and the Department of State are generally receptive to your 
recommendations and attempt to work with them, or are they 
resistant and disputing those recommendations with you?
    Ms. Williams-Bridgers. I would characterize the Department 
of Homeland Security and State as being receptive to our 
recommendations. They have generally concurred with the 
recommendations that we have made on the visa policy and 
process; however, there are some outstanding steps that we 
think would improve the ability of the consular officers to 
make best use of the information generated from the Biometrics 
Visa Program.
    Mr. Tierney. Do you have indications that the Department of 
Homeland Security and Department of State are going to act on 
those outstanding issues or are they still unresolved?
    Ms. Williams-Bridgers. There are some unresolved issues as 
of the report that was just issued today, though, but we are 
quite hopeful that over time, and we will followup with them--
--
    Mr. Tierney. I am sorry, I didn't mean to interrupt you. I 
am sorry.
    Ms. Williams-Bridgers. I am sorry. And we will followup 
with them in ongoing work that we have looking at outstanding 
visa vulnerabilities.
    Mr. Tierney. Because they have actually seen your report 
before you issued it today; you gave them a copy for their 
response.
    Ms. Williams-Bridgers. Yes. And their comments are 
incorporated.
    Mr. Tierney. Right. So when you say they are unresolved, do 
their comments indicate that they dispute them or that they 
intend to try to work with you to try to resolve the issues?
    Ms. Williams-Bridgers. State and DHS have disagreed with 
our recommendation of the need for additional implementing 
guidance to be issued to consulates. They believe that the 
overall policy, as Ms. Jacobs referred to earlier, contained in 
the 13 telegrams allow general operating guidance to the 
consulates, but then allow additional flexibility for the 
consulates given the types of physical constraints that they 
may have, the number of personnel, and the language 
capabilities that result in them relying on Foreign Service 
nationals to integrate into the whole of the visa adjudication 
process.
    So both the DHS and State have agreed in concept to many of 
the recommendations, but they have not agreed to that part of 
the outstanding recommendation that we believe is so important 
to providing actual direction and guidance to the consulates.
    Mr. Tierney. Now, you went out and made field inspections 
after what they perceived to be adequate guidance had already 
been issued to the field.
    Ms. Williams-Bridgers. That is correct.
    Mr. Tierney. And found it to be inadequate.
    Ms. Williams-Bridgers. That is correct.
    Mr. Tierney. And gave us the examples in your report, and 
you cited in your testimony today, of what can happen in those 
situations.
    Ms. Williams-Bridgers. That is correct.
    Mr. Tierney. Thank you.
    Mr. Chairman, I think that probably warrants, we probably 
should have done this in the reverse order, because I would 
like to have now asked questions of the Department of State and 
Department of Homeland Security. Perhaps we can followup with 
some written questions.
    Chairman Tom Davis. That would be fine.
    Ms. Williams-Bridgers. I would be glad to respond.
    Mr. Tierney. Not necessarily of this witness, but the other 
witnesses with respect to their disagreements.
    Thank you very much for your testimony. I appreciate it.
    Chairman Tom Davis. Thank you.
    Mr. Souder.
    Mr. Souder. I want to make a brief comment. I congratulate 
you on your report. Our ultimate security is dependent on 
knowing who is coming in and being able to establish and follow 
them if they are at risk, and this program is critical to that. 
Thank you for your input on that and the report. Anybody who 
ever goes to an admittance desk knows this tremendous tradeoff 
of wanting to bring people into America, whether they be 
students or visitors, encouraging that trade in that aspect, 
and at the same time we need to make sure we are secure.
    One of the things we heard on the drug issue down in the 
Caribbean was a number of the countries there that particularly 
are part of the European countries, whether it be Dutch or 
French, that they then can get a European visa if they live 
there a certain number of years, and that Libya had in fact 
been putting in people who were establishing residency so they 
could get a European passport with which to come in to the 
United States via Puerto Rico.
    And if we don't have systems to make sure we can track 
this, it isn't just the countries involved, but people who come 
in from other countries. In Colombia, watching Venezuelans in a 
Venezuelan embassy watching that Colombians don't come through 
in the drug trade. We are vulnerable on these categories. We 
have time, but we need to systematically work at it, and I 
thank you for your input and advice to Congress and the 
agencies.
    Ms. Williams-Bridgers. Thank you very much, Mr. Souder.
    Chairman Tom Davis. Sounds like you are getting away easy, 
but we have a vote on, so we are going to dismiss you. Thank 
you very much for your testimony and your report that are 
included in the record, and we may have some followup. Thank 
you.
    The hearing is adjourned.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]
    [Note.--Additional information is on file with the 
committee.]
    [The prepared statement of Hon. Henry A. Waxman and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] T7229.044

[GRAPHIC] [TIFF OMITTED] T7229.045

[GRAPHIC] [TIFF OMITTED] T7229.046

[GRAPHIC] [TIFF OMITTED] T7229.047

[GRAPHIC] [TIFF OMITTED] T7229.048

[GRAPHIC] [TIFF OMITTED] T7229.049

[GRAPHIC] [TIFF OMITTED] T7229.050

[GRAPHIC] [TIFF OMITTED] T7229.051

[GRAPHIC] [TIFF OMITTED] T7229.053

[GRAPHIC] [TIFF OMITTED] T7229.054

[GRAPHIC] [TIFF OMITTED] T7229.055

[GRAPHIC] [TIFF OMITTED] T7229.056

[GRAPHIC] [TIFF OMITTED] T7229.057

[GRAPHIC] [TIFF OMITTED] T7229.058

[GRAPHIC] [TIFF OMITTED] T7229.059

[GRAPHIC] [TIFF OMITTED] T7229.060

[GRAPHIC] [TIFF OMITTED] T7229.061

[GRAPHIC] [TIFF OMITTED] T7229.062

[GRAPHIC] [TIFF OMITTED] T7229.063

[GRAPHIC] [TIFF OMITTED] T7229.064

[GRAPHIC] [TIFF OMITTED] T7229.065

[GRAPHIC] [TIFF OMITTED] T7229.066

[GRAPHIC] [TIFF OMITTED] T7229.067

[GRAPHIC] [TIFF OMITTED] T7229.068

[GRAPHIC] [TIFF OMITTED] T7229.069

[GRAPHIC] [TIFF OMITTED] T7229.070

[GRAPHIC] [TIFF OMITTED] T7229.071

[GRAPHIC] [TIFF OMITTED] T7229.072

[GRAPHIC] [TIFF OMITTED] T7229.073

[GRAPHIC] [TIFF OMITTED] T7229.074

[GRAPHIC] [TIFF OMITTED] T7229.075

[GRAPHIC] [TIFF OMITTED] T7229.076

[GRAPHIC] [TIFF OMITTED] T7229.077

[GRAPHIC] [TIFF OMITTED] T7229.087

[GRAPHIC] [TIFF OMITTED] T7229.088

[GRAPHIC] [TIFF OMITTED] T7229.089

[GRAPHIC] [TIFF OMITTED] T7229.090

[GRAPHIC] [TIFF OMITTED] T7229.091

[GRAPHIC] [TIFF OMITTED] T7229.092

[GRAPHIC] [TIFF OMITTED] T7229.093

[GRAPHIC] [TIFF OMITTED] T7229.094

[GRAPHIC] [TIFF OMITTED] T7229.095

[GRAPHIC] [TIFF OMITTED] T7229.096

[GRAPHIC] [TIFF OMITTED] T7229.097

                                 <all>

</pre></body></html>
